           -
                                     NATIONAL SCIENCE FOUNDATION
                                      OFFICE OF INSPECTOR GENERAL
                                        OFFICE OF INVESTIGATIONS

                                  ACTION MEMORANDUM
                                                                                                        11
TO: AIGI    (   File Number: -zW?&%W                                          I Date: March 28, 2002    11
Subject:                                                                                  Page 1 of 1



     Action: Case Close


       1. A proactive review of agency-wide purchase card statements by
          questionable purchases in the individual statement transactions
          administrative officer,                                .

       2. A proactive review of agency-wide purchase card statements generated a questionable
          purchase in the individual statement transactions for the SUBJECT. An interview with
          SUBJECT'S division director justified all expenditures.

       3. This investigation is closed and no further action is being taken by OIG at this time.




                Agent:        Attorney:        Supervisor:     AIGI
   Name:
